CERTIFICATE OF COMPLIANCE
Case No. 20-827
Caption: United States of America v. Zayn
al-Abidin Muhammad Husayn, aha
Abu Zubaydah, et al.
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 7,957 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 20, 2021.

M
Kafia Myrie
Record Press, Inc.

Sworn to before me on
August 20, 2021
JASMINE WILLIAMS
Notary Public, State of New York
No . 01WI6397949
Qualified in Queens County
ission Expires September 16 2023
/

